Department of Homeland Security
   Ofﬁce of Inspector General


            Transportation Security Administration's 

                   Known Shipper Program 


                         (REDACTED)





OIG-09-35                                           March 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      March 5, 2009


                                         Preface

The Department of Homeland Security, Office of Inspector General, was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the effectiveness of the Transportation Security Administration’s
Known Shipper Program. It is based on interviews with employees and officials of the
Transportation Security Administration, direct observation, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1

Background ..........................................................................................................................2


Results of Audit ...................................................................................................................5

   KSP Improvement Efforts Face Continued Challenges................................................5 

    KSP Manual Procedures and KSDB Do Not Ensure Passenger

   Aircraft Cargo Security.................................................................................................8 

   TSA’s Inspection and Testing Activities Do Not

    Ensure KSP Compliance.............................................................................................11 

   Recommendations.......................................................................................................15 

   Management Comments and OIG Analysis ...............................................................16 



Appendices
     Appendix A:          Purpose, Scope, and Methodology........................................................20 

     Appendix B:          Management Comments to the Draft Report ........................................22 

     Appendix C:          Establishment and Verification of a Known Shipper............................29 

     Appendix D:          Major Contributors to this Report .........................................................30 

     Appendix E:          Report Distribution ................................................................................31 



Abbreviations
     DHS                 Department of Homeland Security 

     KSDB                Known Shipper Database 

     KSMS                Known Shipper Management System 

     KSP                 Known Shipper Program

     TSA                 Transportation Security Administration                                 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  The Transportation Security Administration is responsible for
                  overseeing aviation security and ensuring the safety of the air
                  traveling public. This includes the screening of all passengers and
                  their personal property, as well as approximately 13,000 tons of
                  cargo transported on passenger planes each day. The agency
                  requires each regulated entity, such as an air carrier or freight
                  forwarder, to ensure a shipper is known before accepting its cargo
                  for transport on passenger aircraft.

                  The Transportation Security Administration is developing the
                  Known Shipper Management System, which is an automated
                  process for verifying the validity and integrity of shippers. The
                  agency plans to make this the primary method for making shippers
                  known; however, it must resolve challenges in the development
                  and deployment of the system, including technical problems and
                  policy issues. The other two methods available to verify a known
                  shipper are manual procedures and the Known Shipper Database.
                  These methods do not provide assurances that only known shipper
                  cargo is transported on passenger aircraft. The agency’s criteria
                  and guidance for evaluating a shipper are unclear and subject to
                  interpretation, increasing the risk that shippers may be improperly
                  classified as known. The Transportation Security Administration’s
                  inspection and testing activities do not provide assurances that
                  regulated entities are complying with the program’s vetting
                  requirements.

                  We are making six recommendations to the Assistant Secretary of
                  the Transportation Security Administration to strengthen the
                  controls and oversight of the Known Shipper Program. The
                  agency generally concurred with our recommendations.




            Transportation Security Administration’s Known Shipper Program 


                                        Page 1 

Background
               The Aviation and Transportation Security Act of 2001 requires the
               screening of all passengers and property transported on passenger
               planes. The Act gives the Transportation Security Administration
               (TSA) responsibility for overseeing aviation security and ensuring
               the safety of the air-traveling public. TSA continues to improve air
               cargo security using a risk-based, layered approach to enhance
               security without impeding the flow of commerce.

               The Federal Aviation Administration created the Known Shipper
               Program (KSP) before the September 2001 terrorist attacks and the
               creation of the Department of Homeland Security. The KSP is one
               of TSA’s key components for strengthening air cargo security.
               The program establishes procedures for differentiating between
               shippers that are known and unknown for air carriers and indirect
               air carriers who tender cargo for air transportation. Title 49 of the
               Code of Federal Regulation provides that, with limited exceptions,
               domestic and foreign passenger aircraft operators, all-cargo aircraft
               carriers, or indirect air carriers, also known as freight forwarders,
               operating under an approved TSA Standard Security Program may
               tender cargo for transport on passenger aircraft only from shippers
               that are verified as known.

               A known shipper is a person that has an established business
               relationship with an indirect air carrier, an aircraft operator or an
               air carrier based on items such as customer records, shipping
               contracts, a business history and a site visit, or Dun and Bradstreet
               vetting. Currently, TSA allows regulated entities to use several
               methods to classify a shipper as known:

                   �   Manual procedures,
                   �   Known Shipper Database (KSDB), and
                   �   Known Shipper Management System (KSMS).




         Transportation Security Administration’s Known Shipper Program 


                                     Page 2 

      Before TSA assumed responsibility from the Federal Aviation
      Administration, manual procedures were the original method for
      identifying known
      shippers. Prior to          Customer records must contain a shipper’s
      accepting cargo for         name, physical address, phone number, and
      transport on passenger      established and verifiable business payment or
      aircraft, industry          credit history.
      partners are
      responsible for
      conducting shipper
      vetting. For a shipper
      to be considered            An established business history must consist
                                  of a previously documented business
      known, a regulated          relationship between the aircraft operator and
      entity must ensure the
      existence,
      performance, and
      documentation of a
      customer record, along
      with either an established shipping contract or an established
      business history. The regulated entity must also conduct and
      document a site visit.

      The Federal Aviation Administration enhanced its manual
      procedures by developing the KSDB. The KSDB was an
      electronic repository of manually vetted shippers, which
      streamlined the process for regulated entities to verify the status of
      known shippers. Even when a participating regulated entity did
      not originally conduct the vetting, that entity was allowed to rely
      on the known shippers of other entities within the KSDB. TSA
      terminated operation of KSDB on October 31, 2007; however, the




      TSA introduced KSMS for regulated entities’ use in January 2007.
      Under KSMS, TSA conducts the vetting of domestic shippers and
      determines which shippers qualify for known status. Although the
      system is still under development, TSA is now operating KSMS
      and plans to mandate regulated entities’ use of the system as the
      primary method for establishing and verifying known shippers.



Transportation Security Administration’s Known Shipper Program 


                            Page 3 

      TSA requires regulated entities to submit shipper data to KSMS.
      That data undergoes a systematic risk assessment to determine
      whether a shipper can be considered
      known. To evaluate a shipper’s          To support electronic vetting
      validity and integrity, KSMS            through KSMS for each
      electronically compares seven           potential known shipper,
                                              regulated entities are required to
      elements submitted by a regulated       submit:
      entity to existing business
      intelligence compiled by Dun &          � Business name
      Bradstreet. KSMS applies a              � Street number
      weighted scoring methodology by         � Street name
      assessing the level of consistency      � City
      between each corresponding              � State
                                              � Post office box number
      element in the respective data sets.
                                              � Telephone number
      KSMS also checks shippers against
      a list maintained by the Department
      of Treasury’s Office of Foreign Assets Control, which administers
      and enforces economic sanctions programs, primarily against
      countries and groups of individuals such as terrorists and narcotics
      traffickers. An overview of all three methods for establishing and
      verifying a known shipper can be found in Appendix C.

      TSA conducts inspections to ensure that regulated entities comply
      with known shipper requirements. TSA employs approximately
      300 cargo transportation security inspectors dedicated exclusively
      to the oversight of air cargo security. TSA inspectors typically
      conduct inspections at air carriers, indirect air carriers, and all-
      cargo operator stations. TSA also conducts monthly special
      emphasis assessment tests at high-volume cargo airports, in which
      TSA inspectors pose as unknown shippers and attempt to ship
      cargo on passenger aircraft.




Transportation Security Administration’s Known Shipper Program 


                            Page 4 

Results of Audit
                  TSA’s KSP does not provide assurance that only cargo from
                  known shippers is transported on passenger aircraft. TSA has
                  made progress in improving the KSP by developing KSMS;
                  however, the agency has not resolved technical problems and
                  policy issues, which has hindered its use as the primary method for
                  establishing and verifying known shippers.

                  The agency’s criteria and guidance for the other two methods used
                  to make shippers known, manual procedures and the KSDB, are
                  unclear and subject to interpretation. This increases the risk that
                  shippers may be improperly vetted and, therefore, unknown.
                  TSA’s oversight activities do not ensure that regulated entities are
                  complying with KSP requirements.

                  Until KSMS issues are resolved, regulated entities may use any of
                  the three KSP methods for transporting cargo on passenger aircraft.
                  Vulnerabilities within each method increase the potential for
                  someone to falsify or counterfeit shipping documents to become a
                  known shipper, thereby increasing the risk to passenger aircraft
                  security.


          KSP Improvement Efforts Face Continued Challenges
                  TSA has made progress in modifying the KSP with the
                  introduction of the KSMS vetting process, but the agency has been
                  unable to fully implement the new method. TSA has not resolved
                  ongoing technical problems and policy issues in developing and
                  implementing KSMS, which has hindered the agency from making
                  KSMS the primary method for establishing and verifying known
                  shippers. Until these issues are resolved, regulated entities may
                  use any of the three available KSP methods, which pose
                  vulnerabilities to air cargo security.

                  KSMS Technical Problems

                  Unanticipated technical problems and performance-related issues
                  arose during every phase of KSMS development and deployment.




            Transportation Security Administration’s Known Shipper Program 


                                        Page 5 

      After TSA launched KSMS, regulated entities experienced
      problems using the system. For example:

          �	 Some regulated entities were unable to access KSMS to
             upload shipper lists for vetting;
          �	 KSMS was returning vetted and appended shipper lists to
             the wrong party;
          �	 KSMS was returning inaccurate shipper status 

             determinations to some users; and 

          �	 KSMS required a lengthy amount of time to conduct start­
             to-finish processing of shippers, significantly delaying
             regulated entities’ receipt of status determinations.

      TSA officials and the KSMS development contractor explained
      that technical problems existed between the intended functional
      requirements and TSA’s existing operating platform. The
      contractor was responsible for determining the functional
      requirements and designing a system that would work within the
      context of both existing and potential technologies. TSA directed
      the contractor to customize the database engine within the
      agency’s existing technologies to support KSMS functionality.
      According to the contractor, TSA’s existing technology, an Oracle
      database, was not designed to handle the high volume of KSMS
      data.

      TSA’s KSMS has exceeded cost expectations and is behind
      schedule because of these ongoing technical problems. In the
      majority of their weekly project status reports, the KSMS
      integrated project team said the overall project status was less than
      acceptable because of the system’s technical problems and the
      project’s inability to stay on schedule. TSA could not provide
      documentation to show the estimated initial costs for developing
      and deploying KSMS due to insufficient strategic planning for the
      system. We have therefore been unable to determine the extent of
      the delay and the associated cost overrun. However, as of July
      2008, TSA had spent more than $34 million and taken more than 3
      years to implement KSMS.

      The KSMS project incurred delays in January 2007 because TSA
      could not immediately extend the contract with Dun & Bradstreet
      for business intelligence to support the shipper vetting process.
      The KSMS project manager was informed just 48 hours before the



Transportation Security Administration’s Known Shipper Program 


                            Page 6 

      expiration of the contract that TSA could not exercise the option
      year based on a new Department of Homeland Security (DHS)
      contracting requirement. All KSMS testing and production work
      stopped for nearly 3 months until the contracting issue was
      resolved.

      TSA officials acknowledged that the agency could have prevented
      or alleviated some of the technical problems through better
      management and oversight of the KSMS project and the system’s
      developer. TSA also indicated that KSMS performance suffered
      from the contractor’s lack of expertise in building systems
      designed to perform KSMS functions, as well as insufficient
      contractor personnel to support the project.

      KSMS Policy Issues

      TSA has not resolved several KSMS policy issues. Under KSMS,
      a known shipper is identified by the name and physical address of
      the facility where the cargo is physically tendered from, not by a
      third-party “bill-to” address. However:

          �	 TSA has not decided how entities can tender cargo from a
             location other than the shipper’s physical address, such as a
             trade show.
          �	 TSA has not decided how domestic known shippers with
             foreign business locations can tender cargo abroad for
             transport on passenger aircraft.

      TSA is currently working to resolve these policy issues, but the
      agency could not estimate when they would be finished. TSA’s
      procedures allow regulated entities to comment on the proposed
      changes, which the agency must consider before finalizing the
      policy. As a policy is changed, TSA must issue amended standard
      security programs for each type of entity subject to KSP
      requirements before declaring KSMS compliance mandatory,
      which may cause further delays.

      Due to the ongoing technical problems and unresolved policy
      issues, TSA has postponed mandating the use of KSMS on several
      occasions. Table 1 shows TSA’s repeated efforts to communicate
      dates for mandating KSMS as the only method for regulated
      entities to establish and verify known shippers.



Transportation Security Administration’s Known Shipper Program 


                            Page 7 

        Table 1: KSMS Delay Timetable

              Date               TSA Message Regarding KSMS Implementation

                            After 90 calendar days, KSDB will be deactivated, making KSMS
         January 20, 2007
                            the only permissible tool for electronically verifying shippers.

                            Due to unforeseen system problems, TSA cannot provide a specific
         March 26, 2007     date when KSMS will be fully operational. In the interim, regulated
                            entities may continue using the alternative procedures.

                            KSDB will be deactivated on October 31, 2007, making KSMS the
         August 23, 2007
                            only permissible tool for electronically verifying shippers.

                            TSA withdraws mandatory KSMS compliance as of October 31,
                            2007. After this date, regulated entities may use KSMS, manual
         October 12, 2007   procedures, or KSDB printouts to verify known shippers until April
                            30, 2008, or until the amended standard security programs are
                            issued.

                            TSA withdraws the April 30, 2008, date and permits regulated
         March 14, 2008     entities to continue using any of the three methods to verify known
                            shippers until further notice.



       Until TSA mandates KSMS, regulated entities may verify known
       shipper status through any of the three available methods. Entities
       may exploit some vulnerabilities in these three systems to obtain
       the most favorable outcomes for their purposes. For example,
       KSMS may determine that a shipper matched to the Office of
       Foreign Asset Control list presents a security risk and therefore is
       ineligible to receive known status. However, when an entity has a




KSP Manual Procedures and KSDB Do Not Ensure
Passenger Aircraft Cargo Security
       Manual procedures and KSDB do not provide assurances that the
       KSP has strengthened cargo security on passenger aircraft. TSA
       has not provided clear criteria and specific guidance for making a




 Transportation Security Administration’s Known Shipper Program 


                             Page 8 

      shipper known. As a result, regulated entities may be improperly
      classifying shippers as known and allowing cargo from unknown
      shippers to be transported on passenger aircraft, posing potential
      risks to air cargo security.

      TSA’s written standard security programs do not provide enough
      guidance on the level of details that need to be collected and
      reviewed in making a shipper known through the manual
      procedures and KSDB. Under these methods, entities are allowed
      to perform minimal investigative procedures to demonstrate that
      these shippers are trustworthy and have adequate security measures
      in place to ensure the integrity of their shipments.

      For example, the agency’s standard security programs require
      entities using the manual procedures to ensure the existence of a

                                                    The established
      shipping contract must cover a series of shipments. However, the
      security programs



      TSA’s standard security programs also do not sufficiently define
      how to establish a business history to consider a shipper known.
      The programs explain that an established business history consists
      of:




      TSA does not specify how                          must be achieved to
      support a business history. It implies the entity must transport the
                                   shipments through other modes of
      transportation since cargo cannot be transported on passenger
      aircraft until a business history is established. However, this is not
      clear. For example, one air carrier assumed it could transport a
      shipper’s                                          on its own aircraft,




Transportation Security Administration’s Known Shipper Program 


                            Page 9 

      but a TSA inspector cited the air carrier for improperly declaring
      the shipper as known.

      KSP site visit verifications to substantiate a known shipper’s
      existence are not always properly conducted. Manual procedures
      require regulated entities to complete a verification form while
      performing a site visit to a shipper’s location to classify it as
      known, but TSA does not provide any instructions or guidance for
      collecting the information. With the exception of a shipper
      representative’s signature, anyone could complete all required
      fields on the form without having actually visited the shipper’s
      location to confirm its existence.

      Inspection reports addressing site visit forms noted violations or
      confusion about the requirement to conduct site visits in
      conjunction with completing the form. For example:

          ��	 �ne airport reported that two entities allowed shippers to
              complete and fax back site verification forms rather than
              conducting on-site visits.
          ��	 At a second airport, the indirect air carrier’s owner told the
              inspector that since he knew an individual working at the
              shipper’s business, he considered it known and did not
              complete the required form.

      Additionally, 14 of the TSA inspectors we interviewed said
      regulated entities often had concerns that the requirements for
      maintaining manual records were unclear and confusing.

      Similar to the manual procedures, KSDB does not provide
      adequate assurances that a shipper is known before transporting
      cargo on passenger aircraft. KSDB allows a regulated entity to use




Transportation Security Administration’s Known Shipper Program 


                           Page 10 

       to verify known shippers, but the agency could not quantify the
       current level of KSDB usage.

       By not providing specific criteria and guidance to establish and
       verify a known shipper, TSA provides opportunities for any
       shipper, including criminals or terrorists, to obtain known status
       without adequate verification. This shortcoming increases the
       opportunity for someone to falsify or counterfeit shipping
       documents and become a known shipper, posing vulnerabilities
       and possible risks to passenger aircraft security.


TSA’s Inspection and Testing Activities Do Not Ensure KSP
Compliance
       TSA’s inspection and testing activities do not provide assurances
       that regulated entities are complying with KSP requirements. TSA
       does not provide specific guidance on the inspection process,
       which allows varying interpretations and may lead to inaccurate
       results. TSA inspectors perform covert special emphasis
       assessment testing of regulated entities to assess compliance, but
       these tests are not always effective and realistic. As a result, the
       agency may be missing opportunities to identify areas of the KSP
       that could be improved to decrease vulnerabilities and strengthen
       air cargo security.

       KSP Inspections

       TSA’s inspections may not accurately determine KSP compliance.
       Inspectors conduct these activities based on their own
       interpretation of the inspection guidance. The agency’s national
       inspection manual provides limited information about the four
       general inspection methods that inspectors may use: surveillance,
       interviewing, reviewing documentation, and testing. The
       inspection manual does not specify to what extent each inspection
       method should be applied. Given such flexibilities, inspectors may
       favor one inspection method over the other three, which may not
       effectively identify KSP violations.




 Transportation Security Administration’s Known Shipper Program 


                            Page 11 

      Some inspectors do not review enough documentation to determine
      KSP compliance. Inspectors use their own discretion on the types
      and amounts of documents to review. We reviewed the results of
      TSA’s inspections in which inspectors determined whether
      regulated entities vetted known shippers according to the manual
      procedures. Of the 248 questions or prompts we reviewed,
      inspectors concluded that entities were in compliance in 112
      instances. As shown in Table 2, inspectors did not
                      instances and verified
      in others, providing little evidence to support compliance.

      Table 2: Air Waybills Reviewed to Determine Known Shipper Status




      Additionally,
      inspectors frequently
      relied on interviews as
      primary support for
      whether regulated
      entities met KSP
      requirements. Relying
      on interviews may not
      give the inspectors
      enough information to
      identify instances of
      noncompliance.

      As shown in Exhibit 1,
      a few exemptions allow




Transportation Security Administration’s Known Shipper Program 


                           Page 12 

      the transport of cargo from unknown shippers on passenger
      aircraft. We reviewed 182 inspection reports in which inspectors
      addressed whether indirect air carriers transported unknown
      shipper cargo and noted 98 instances that were “Not Applicable.”
      These reports indicated:

          �	 Inspectors relied primarily on interviews for 80 of the 98
             instances, or 82 %. There was no additional support
             showing that inspectors checked documentation or
             observed the entities accepting cargo.
          �	 On four inspection reports, the inspector specifically
             reported conclusions based on both interviews and
             document reviews.
          �	 For the remaining 14 instances, we were unable to
             determine how the inspectors supported the conclusion that
             this question did not apply to the indirect air carrier.

      Inspectors’ frequent reliance on just one inspection method, such
      as an interview, to determine applicability may not identify
      instances of KSP violations. TSA’s oversight of the KSP would be
      stronger when inspectors use more than one of the four general
      inspection methods prescribed in the inspection manual, and when
      they examine more documentation during their inspections.

      TSA’s Special Emphasis Assessment
      and Covert Testing of KSP Compliance

      TSA’s special emphasis assessment tests to determine compliance
      with KSP requirements are not always realistic, adequate, or
      reliable. According to the testing protocols, the objective of the
      tests is “to determine, through realistic testing,” whether regulated
      entities are properly identifying and subsequently refusing to
      transport unknown shipper cargo on passenger aircraft. However,
      TSA’s assessment testing protocols do not always consider the
      unique nature of the various airports’ operations.

      For example, a supervisory inspector reported that most of the
      indirect air carriers at his airport have only one or two customers.
      However, this official is required to perform 10 tests per month
      and could be recognized when testing the same entities.




Transportation Security Administration’s Known Shipper Program 


                           Page 13 

      Five of the inspectors interviewed believe TSA’s testing protocols
      are not realistic for testing KSP compliance. For example:

          �	 One inspector indicated the same inspectors tender
             unknown shipper packages to the air carriers monthly.
             After a while, the air carriers may come to recognize the
             inspectors.
          �	 Another inspector said that they perform walk-up tests,
             even though the entities do not accept walk-up business.
          �	 An inspector reported that indirect air carriers have their
             own client base and would most likely pass a test since they
             would direct the tester to use another carrier, such as
             FedEx.

      Some inspectors may not be convincing as covert shippers because
      they fear retribution from the entities tested. The protocols require
      inspectors to identify themselves to aircraft operators or indirect air
      carriers that accept the test packages. The inspector’s test could
      result in an employee either being removed from a job or the
      entity’s operating privilege being revoked if someone incorrectly
      accepts the test package. Some inspectors expressed discomfort
      with using their own identification and would rather use false
      credentials in carrying out these duties because of potential
      retribution.

      In August 2008, TSA’s Office of Security Operations engaged the
      field inspectors in a working session to solicit ideas for developing
      future special emphasis assessment tests. Inspectors provided
      more than 75 suggestions, which the agency will use when
      developing tests for fiscal year 2009.

      TSA’s Office of Inspection has been planning to conduct red team
      covert testing of air cargo security since 2006. The agency has not
      performed these tests because it does not have the necessary
      undercover authority. TSA’s Office of Chief Counsel created a
      legislative proposal in 2007 to resolve this authority problem, but
      DHS rejected the plan as not viable. TSA did not disclose the
      specific reasons for this rejection. In March 2008, TSA’s Chief
      Counsel sent an informal action memo to DHS’ Office of General
      Counsel requesting the authority; however, this request was also
      denied.




Transportation Security Administration’s Known Shipper Program 


                           Page 14 

       Unless TSA provides proper guidance and performs effective
       inspections and special emphasis assessment testing, the agency
       cannot ensure that KSP is effectively strengthening air cargo
       security. Also, without specific statutory authority, TSA cannot
       establish the covert operation it needs to perform red team tests.
       As a result, the agency may be missing opportunities to identify
       areas of the KSP that could be improved to decrease vulnerabilities
       and risks to air transportation.


Recommendations
       We recommend that the Assistant Secretary of the Transportation
       Security Administration:

       Recommendation #1: Resolve all remaining Known Shipper
       Management System technical problems and policy issues so that
       the agency can target and achieve a specific date for mandating
       regulated entities compliance with the new method.

       Recommendation #2: Document and share with all Department
       of Homeland Security personnel involved in procurement actions,
       the experience and lessons learned from the contracting and
       development of the Known Shipper Management System for use in
       improving future agency program enhancements.

       Recommendation #3: Enhance the criteria and guidance used in
       the manual process for making a shipper known to provide greater
       assurance that shippers are legitimate and pose a minimal threat to
       aviation security. Specifically, the agency should provide better
       direction on the frequency and efforts required to validate the
       existence, performance, and documentation of each known shipper.

       Recommendation #4: Provide more specific guidance to
       inspectors conducting reviews of Known Shipper Program
       compliance, including the level of review and effort necessary to
       verify known shipper status, the amount of documentation and air
       waybills to examine, and the appropriate balance in the application
       of the four basic inspection methods.

       Recommendation #5: Revise special emphasis assessment testing
       protocols to reflect more realistic scenarios. Specifically, the
       agency should revise the protocols based on the many suggestions


 Transportation Security Administration’s Known Shipper Program 


                            Page 15 

        solicited from field inspectors so the testing will be more reliable
        to gauge compliance.

        Recommendation #6: Continue to work with the Office of
        General Counsel to obtain undercover authority that would allow
        the agency to perform red team covert testing of Known Shipper
        Program compliance and air cargo security.


Management Comments and OIG Analysis
TSA generally concurred with the recommendations in the report. The
agency will use the findings and recommendations to continue to improve
the KSP.

TSA’s response indicated that the KSP is an important layer in securing
the air cargo supply chain, but is by no means the only mechanism used to
strengthen air cargo security. Rather, the KSP provides one measure of
security by establishing a valid business relationship between shippers and
regulated entities that accept cargo for transport by air. Other critical
layers of TSA’s Air Cargo Security Strategy include security threat
assessments, cargo screening and compliance inspections.

TSA also noted that the agency has recently made improvements to its Air
Cargo Security Enforcement Program. For example, TSA’s Fiscal Year
2008 Regulatory Activities Plan directed Transportation Security
Inspectors to conduct at least two critical inspections per year at air
carriers and indirect air carriers to determine whether an entity is in
compliance with known shipper requirements. At least once a month at
various locations, TSA conducts Cargo Strikes, which are week-long
regulatory compliance “blitzes” of a target airport’s regulated air cargo
community. In fiscal year 2008, TSA conducted nearly 4,000 covert tests
of both foreign and domestic air carriers and indirect air carriers in regard
to known shipper security requirements.

Management Comments to Recommendation 1:

TSA Concurs. TSA has aggressively proceeded with several
modifications to KSMS to correct issues which kept the system from
operating at a level which could support mandatory use. These
modifications were developed by TSA and are in the final stages of




  Transportation Security Administration’s Known Shipper Program 


                             Page 16 

testing. Once in production, an evaluation period will be necessary to
validate the performance and quality standards prior to issuing a
mandatory requirement. TSA intends to make KSMS mandatory when all
technical problems and policy issues are fully resolved.

OIG Analysis: We recognize TSA’s efforts to correct the KSMS
deficiencies by making modifications to the automated system which
could support mandatory use. This recommendation is resolved but will
remain open until TSA requires mandatory use of KSMS.

Management Comments to Recommendation 2:

TSA concurs, in part. TSA concurs that the agency will benefit from a
structured review of the program management challenges presented by
KSMS and from the identification of lessons learned. TSA does not agree
that sharing lessons learned across the Department would be beneficial.
Many of TSA’s challenges with the program can be attributed to the fact
that KSDB was deemed to be a short-term fix that was not meant to last
more than 6 months. However, because of more pressing agency
priorities, KSDB lasted 5 years.

OIG Analysis: TSA’s response acknowledges that the agency could have
prevented or alleviated some of the technical problems through better
management and oversight of the KSMS project and the system’s
developer. TSA also indicated that KSMS performance suffered from the
contractor’s lack of expertise in building systems designed to perform
KSMS functions, as well as insufficient contractor personnel to support
the project. We believe these experiences would be a valuable lesson for
other DHS personnel involved in procurement actions. Accordingly, this
recommendation is unresolved and will remain open.

Management Comments to Recommendation 3
TSA Concurs, in part. TSA’s response did not clearly identify why the
agency partially concurred. TSA is currently revising the known shipper
portions of the standard security programs to provide more specific details
to the regulated parties regarding the criteria to make a shipper known
using the manual approach. The standard security programs were
scheduled for publication in December 2008. TSA noted that some
regulated parties have chosen not to fully comply with procedures outlined
in the standard security programs for making a shipper known through the
manual method. As such, TSA will continue to aggressively pursue
enforcement action against these parties when violations are discovered.



  Transportation Security Administration’s Known Shipper Program 


                             Page 17 

OIG Analysis: The issuance of the revised standard security programs
should provide greater assurance that shippers are legitimate. This
recommendation is resolved but will remain open until we have the
opportunity to review the security programs.

Management Comments to Recommendation 4

TSA Concurs. TSA has already started several different initiatives that
effectively provide Transportation Security Inspectors more specific
guidance for conducting reviews of KSP compliance. Some examples
include an enhanced training curriculum, revising the National Inspection
Manual, and more in-depth reviews of the regulated entities involving
known shipper requirements.

Because of the large number of business models in use, the regulated
entities must have flexibility to prove compliance with KSP requirements.
Transportation Security Inspectors must have flexibility to use different
methods of inspection to determine compliance with these requirements.
Rather than prescribe exactly how many documents to review or how
many personnel to interview, TSA ensures Transportation Security
Inspectors have flexibility by training them in inspection and investigation
techniques and then empowering them to use inspector discretion to
determine compliance.

OIG Analysis: The enhanced training, guidance, and more
comprehensive inspections should provide better testing of the known
shipper requirements. This recommendation is resolved but will remain
open until we have the opportunity to review the enhanced inspector
training curriculum and National Inspection Manual revisions.

Management Comments to Recommendation 5

TSA Concurs. TSA has begun revising its special emphasis assessment
testing protocols. The agency is modifying the special emphasis
assessment testing protocols, based on nearly 100 unique suggestions from
field Transportation Security Inspectors who attended a National
Transportation Security Inspector Cargo Conference in August 2008.
TSA expects to implement the new protocols in the second quarter of
fiscal year 2009.

OIG Analysis: This recommendation is resolved but will remain open
until we have the opportunity to review documentation supporting that the
new special emphases testing protocols have been implemented.


  Transportation Security Administration’s Known Shipper Program 


                             Page 18 

Management Comments to Recommendation 6

TSA Concurs. TSA’s Office of Chief Counsel has submitted to DHS
Office of General Counsel a revised legislative proposal and is working
with the OGC to complete an Administration review.

OIG Analysis: This recommendation is closed.




  Transportation Security Administration’s Known Shipper Program 


                             Page 19 

Appendix A
Purpose, Scope, and Methodology

                    The objective of our audit was to determine whether TSA’s
                    policies and procedures for the Known Shipper Program provide
                    assurances that cargo is secure for transport on passenger aircraft.
                    We also determined whether TSA’s inspections of regulated
                    entities provide assurances that those entities are complying with
                    KSP requirements.

                    We obtained and reviewed applicable federal laws and regulations,
                    TSA’s standard security programs, security alerts, cargo
                    information bulletins, the National Inspection Manual, the Air
                    Cargo Strategic Plan, and other related documents.

                    We interviewed TSA personnel from the Offices of Transportation
                    Sector Network Management, Security Operations, Inspections,
                    and Chief Counsel. We also interviewed representatives from
                    TSA’s Information Technology Division, Solution Delivery
                    Branch, and contractors responsible for the development and
                    support of the KSMS.

                    We visited and interviewed inspectors at three Category X airports.
                    At two of the three, we observed TSA personnel performing
                    inspections at aircraft operators, all-cargo operators, and indirect
                    air carrier facilities.

                    We also conducted a review and analysis of ten of the 18 Category
                    X airports that transported the most freight during fiscal year 2007.
                    They were:

                        �   John F. Kennedy International;
                        �   Los Angeles International;
                        �   Chicago O’Hare International;
                        �   Hartsfield-Jackson Atlanta International;
                        �   Miami International;
                        �   San Francisco International;
                        �   Washington-Dulles International;
                        �   Honolulu International;
                        �   Newark-Liberty International Airport; and
                        �   Dallas/Fort Worth International.

                    We obtained summary TSA reports documenting the total number
                    and type of inspections each airport performed on the known
                    shipper requirements completed at each location between October
                    1, 2006, and March 31, 2008. We also obtained several reports

              Transportation Security Administration’s Known Shipper Program 


                                         Page 20 

Appendix A
Purpose, Scope, and Methodology

                    summarizing the numbers and types of violations inspectors
                    disclosed during their inspections. We judgmentally selected and
                    analyzed 381 inspection reports to determine the quality of TSA’s
                    inspection efforts. We developed a questionnaire and interviewed
                    22 TSA inspectors at these airports.

                    We conducted this performance audit according to generally
                    accepted government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives. We believe the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objectives. We conducted
                    fieldwork between April 2008 and August 2008 under the
                    authority of the Inspector General Act of 1978, as amended.




              Transportation Security Administration’s Known Shipper Program 


                                         Page 21 

Appendix B
Management Comments to the Draft Report




              Transportation Security Administration’s Known Shipper Program 


                                         Page 22 

Appendix B
Management Comments to the Draft Report




              Transportation Security Administration’s Known Shipper Program 


                                         Page 23 

Appendix B
Management Comments to the Draft Report




              Transportation Security Administration’s Known Shipper Program 


                                         Page 24 

Appendix B
Management Comments to the Draft Report




              Transportation Security Administration’s Known Shipper Program 


                                         Page 25 

Appendix B
Management Comments to the Draft Report




              Transportation Security Administration’s Known Shipper Program 


                                         Page 26 

Appendix B
Management Comments to the Draft Report




              Transportation Security Administration’s Known Shipper Program 


                                         Page 27 

Appendix B
Management Comments to the Draft Report




              Transportation Security Administration’s Known Shipper Program 


                                         Page 28 

Transportation Security Administration’s Known Shipper Program 


                           Page 29 

Appendix D
Major Contributors to this Report


                      Patrick O’Malley, Director
                      Dennis Deely, Audit Manager
                      Robert Ferrara, Auditor-In-Charge
                      Gary Alvino, Program Analyst
                      Tia Jackson, Program Analyst
                      James Bess, Referencer




           Transportation Security Administration’s Known Shipper Program 


                                      Page 30 

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary, Transportation Security Administration
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Secretary for Public Affairs
                      Director, GAO/OIG Liaison Office of Inspector General TSA
                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Transportation Security Administration’s Known Shipper Program 


                                      Page 31 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
